<html>
<title> - DEPARTMENT OF ENERGY USER FACILITIES: UTILIZING THE TOOLS OF SCIENCE TO DRIVE INNOVATION THROUGH FUNDAMENTAL RESEARCH</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                 DEPARTMENT OF ENERGY USER FACILITIES:
                UTILIZING THE TOOLS OF SCIENCE TO DRIVE
                INNOVATION THROUGH FUNDAMENTAL RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, JUNE 21, 2012

                               __________

                           Serial No. 112-92

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-729 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI,Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas















                            C O N T E N T S

                        Thursday, June 21, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    18

Statement by Representative Brad Miller, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    18
    Written Statement............................................    20

                               Witnesses:

Dr. Antonio Lanzirotti, Chairman, National User Facility 
  Organization
    Oral Statement...............................................    22
    Written Statement............................................    25

Dr. Persis Drell, Director, SLAC National Accelerator Laboratory
    Oral Statement...............................................    61
    Written Statement............................................    63

Dr. Stephen Wasserman, Senior Research Fellow, Translational 
  Scientist and Technologies, Ely Lilly and Company
    Oral Statement...............................................    71
    Written Statement............................................    73

Ms. Suzy Tichenor, Director, Industrial Partnerships Program, 
  Computing and Computational Sciences, Oak Ridge National 
  Laboratory
    Oral Statement...............................................    87
    Written Statement............................................    89

Dr. Ernest Hall, Chief Scientist, Chemistry and Chemical 
  Engineering/Materials Characterization, GE Global Research
    Oral Statement...............................................    95
    Written Statement............................................    98

Discussion                                                          106

              Appendix: Answers to Post-Hearing Questions

Dr. Antonio Lanzirotti, Chairman, National User Facility 
  Organization...................................................   121

Dr. Persis Drell, Director, SLAC National Accelerator Laboratory.   135

Dr. Stephen Wasserman, Senior Research Fellow, Translational 
  Scientist and Technologies, Ely Lilly and Company..............   138

Ms. Suzy Tichenor, Director, Industrial Partnerships Program, 
  Computing and Computational Sciences, Oak Ridge National 
  Laboratory.....................................................   140

Dr. Ernest Hall, Chief Scientist, Chemistry and Chemical 
  Engineering/Materials Characterization, GE Global Research.....   144

             Appendix 2: Additional Material for the Record

Proprietary User Agreement, UChicago Argonne, LLC, Operator of 
  Argonne National Laboratory....................................   148

 
                 DEPARTMENT OF ENERGY USER FACILITIES:
                UTILIZING THE TOOLS OF SCIENCE TO DRIVE
                INNOVATION THROUGH FUNDAMENTAL RESEARCH

                              ----------                              


                        THURSDAY, JUNE 21, 2012

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:31 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. The Subcommittee on Energy and Environment 
will come to order.
    Good morning. Welcome to today's hearing entitled 
``Department of Energy User Facilities: Utilizing the Tools of 
Science to Drive Innovation through Fundamental Research.'' In 
front of you are packets containing the written testimony, 
biographies and Truth in Testimony disclosures for today's 
witness panel. I now recognize myself for five minutes for an 
opening statement.
    Good morning, and welcome to today's hearing. The purpose 
of the hearing is to examine the role DOE scientific user 
facilities play in enabling the fundamental research that 
advances basic understanding of the physical world while also 
driving innovation and economic growth.
    Approximately half of the Office of Science's $5 billion 
budget is dedicated to the design, construction and operation 
of these major scientific user facilities. They can perhaps 
best be described as the most powerful machines of modern 
science: X-ray light sources, supercomputers, neutron sources, 
particle accelerators and similar tools that allow study of the 
most complex properties of matter and energy. For example, the 
Linac Coherent Light Source, LCLS, which we will hear about 
today, can capture images of atoms and molecules in motion with 
an incredible shutter speed of less than 100 femtoseconds, 
approximately the time it takes for light to travel the width 
of a human hair.
    The science undertaken at LCLS and similar facilities has a 
direct and significant impact on innovation, driving 
discoveries with potential to advance and transform 
applications from medicine to materials to computing and 
semiconductors. Today's hearing will focus particularly on 
these innovation-enabling facilities and their relevance and 
importance to U.S. industry and the economy.
    As with nearly every energy R&D issue this Subcommittee 
oversees, budget prioritization is key and only of growing 
importance as we continue to confront record debts and 
deficits.
    The President has been clear that his priority within the 
DOE is development and commercialization of green energy 
technologies. For example, his budget calls for over $1.5 
billion in new spending by the Office of Energy Efficiency and 
Renewable Energy, an 84 percent year-over-year increase. By 
comparison, the Administration is only requesting a 2.4 
percent, or $118 million, increase for the Office of Science. I 
believe the President's priorities are misplaced.
    His record of massive spending increases on green energy 
programs has come under widespread criticism, with government 
intervention in the clean energy marketplace tending to pick 
winners and losers while distorting the allocation of capital 
and resulting in numerous examples of troubling political 
cronyism.
    By contrast, DOE construction and operation of major 
scientific user facilities is generally well regarded and 
represents a key component of the scientific enterprise that is 
central to American innovation and economic competitiveness. It 
cannot be met by individual companies or entities.
    While funding increases for any program will be hard to 
come by as we work to address the fiscal crisis facing the 
country, the basic research supported by the Office of Science 
and DOE user facilities should remain a high priority.
    I thank the witnesses for being here and look forward to a 
productive discussion regarding potential opportunities to 
improve planning, management and operation of DOE user 
facilities to better leverage these important scientific 
resources.
    [The prepared statement of Mr. Harris follows:]

        Prepared Statement of Subcommittee Chairman Andy Harris

    Good morning and welcome to today's hearing on ``Department of 
Energy User Facilities: Utilizing the Tools of Science to Drive 
Innovation Through Fundamental Research.''
    The purpose of this hearing is to examine the role DOE scientific 
user facilities plays in enabling the fundamental research that 
advances basic understanding of the physical world while also driving 
innovation and economic growth.
    Approximately half of the Office of Science's $5 billion budget is 
dedicated to the design, construction and operation of these major 
scientific user facilities. They can perhaps best be described as the 
most powerful machines of modern science--X-ray light sources, 
supercomputers, neutron sources, particle accelerators and similar 
tools that allow study of the most complex properties of matter and 
energy. For example, the Linac Coherent Light Source (LCLS), which we 
will hear about today, can capture images of atoms and molecules in 
motion with an incredible ``shutter speed'' of less than 100 
femtoseconds--approximately the time it takes for light to travel the 
width of a human hair.
    The science undertaken at LCLS and similar facilities has a direct 
and significant impact on innovation, driving discoveries with 
potential to advance and transform applications from medicine to 
materials to computing and semiconductors. Today's hearing will focus 
particularly on these innovation-enabling facilities and their 
relevance and importance to U.S. industry and the economy.
    As with nearly every energy R&D issue this Subcommittee oversees, 
budget prioritization is key, and only of growing importance as we 
continue to confront record debt and deficits.
    The President has been very clear that his priority within the 
Department of Energy is development and commercialization of green 
energy technologies. For example, his budget calls for over $1.5 
billion in new spending by the Office of Energy Efficiency and 
Renewable Energy--an 84 percent year-over-year increase. By comparison, 
the Administration is requesting a 2.4 percent ($118 million) increase 
for the Office of Science.
    I believe the President's priorities are misplaced. His record of 
massive spending increases on green energy programs has come under 
widespread criticism, with government intervention in the clean energy 
marketplace tending to ``pick winners and losers'' while distorting the 
allocation of capital and resulting in numerous examples of troubling 
political cronyism.
    By contrast, DOE construction and operation of major scientific 
user facilities is generally well regarded and represents a key 
component of the scientific enterprise that is central to American 
innovation and economic competitiveness yet cannot be met by individual 
companies or entities.
    While funding increases for any program will be hard to come by as 
we work to address the fiscal crisis facing the country, the basic 
research supported by the Office of Science and DOE user facilities 
should be a high priority.
    I thank the witnesses for being here and look forward to a 
productive discussion regarding potential opportunities to improve 
planning, management, and operations of DOE user facilities to better 
leverage these important scientific resources.
    I now recognize Ranking Member Miller for his opening statement.

    Chairman Harris. I now recognize Ranking Member Miller for 
his opening statement.
    Mr. Miller. Thank you, Mr. Chairman.
    The Department of Energy user facilities are and should be 
a core focus of this Committee's jurisdiction. This hearing 
gives Committee members and the public an opportunity to better 
understand the indispensable role that the Department of Energy 
user facilities plays in our Nation's innovation enterprise. 
The taxpayer has billions of dollars invested in these 
facilities, and we should examine just what we get for that 
investment.
    In short, we get scientific capabilities that do not exist 
elsewhere either in the private sector or in academia. Academic 
and industry researchers are able to break new scientific 
ground, as well as accelerate the process for translating 
scientific discovery into marketable products. At user 
facilities, federal funds support more efficient cars and 
trucks; more effective drugs; lighter and stronger materials; 
cheaper and more durable batteries; cleaner power plants; 
reduced reliance on foreign energy; a clearer picture of our 
changing climate; and even a better understanding of the 
origins of the universe and the nature of space and time.
    Perhaps most important, we get the talent and technologies 
that provide for stronger and more competitive high-tech and 
manufacturing sectors in the United States. We get jobs.
    I don't see much distance between Republicans and Democrats 
in terms of supporting the Office of Science and sustaining 
these facilities at a level where they can truly contribute to 
our Nation's competitiveness. I hope my Republican colleagues 
do not use this hearing to justify an arbitrary and unrealistic 
line around the appropriate role of government in the energy 
technology space. We have seen a dangerous and misguided effort 
to label DOE activities beyond basic research, as if that is 
clearly defined concept, as picking winners and losers and 
crowding out private investment for the purpose of cutting 
research in clean energy technologies and slashing budgets of 
EERE and ARPA-E, in other words, picking losers.
    This perspective assumes that technology always develops in 
a linear way, that there are no market failures or valleys of 
death, and that the private sector and the market have the 
capacity and incentive to support real innovation fully on its 
own--on their own.
    On the contrary, the testimony from this panel of experts 
shows the complexity and difficulty that technology developers 
face in moving from idea to marketable product. It is dogma, 
and not market reality, that dictates that we draw a line 
around what resources we provide to our Nation's innovators to 
be competitive.
    The Office of Science user facilities are an essential tool 
for helping many academics and industry researchers get beyond 
otherwise daunting scientific or technological problems, and I 
expect that they will always be a shared priority of both 
Democrats and Republicans.
    But we would be well served to remember that these user 
facilities are by no means the only tools that we have at our 
disposal. What we have come to regard as the applied programs 
at DOE, such as EERE and ARPA-E, can play an equally important 
role in moving concepts and technologies through research 
barriers that a light source or a computer alone couldn't 
solve. Far from picking winners, these programs identify the 
other gaps, the white spaces, where some extra resources and 
guidance might help the developer get beyond some technological 
risk and accelerate the development. If you want to see what 
picking a winner looks like, check out what our competitors in 
Europe and Asia are doing to support innovation and domestic 
companies there.
    And if you truly want to make government work for people, 
facilitate our domestic industrial sector's race for global 
technological leadership, and bring real jobs to the United 
States, we will drop the stale, dogmatic and often illogical 
constraints that keep us from taking advantage of our 
government resources. Our economy was built on science, much of 
it government-supported science. From achievements in the human 
genome to sending a man to the Moon, the Federal Government has 
effectively supported a strong innovation backbone for a 
century of economic success. Why stop now? Why limit ourselves 
when the stakes are so high?
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Miller follows:]

     Prepared Statement of Subcommittee Ranking Member Brad Miller

    Thank you, Mr. Chairman. The Department of Energy user facilities 
are a core focus of this Committee's jurisdiction. This hearing gives 
Committee Members and the public an opportunity to better understand 
the indispensible role that the Department of Energy user facilities 
plays in our Nation's innovation enterprise. The taxpayer has billions 
of dollars invested in these facilities, and we should examine just 
what we get for that investment.
    In short, we get scientific capabilities that do not exist anywhere 
else in the private sector or academia. Academic and industry 
researchers are able to break new scientific ground, as well as 
accelerate the process for translating scientific discovery into 
marketable products. At user facilities, federal funds support more 
efficient cars and trucks; more effective drugs; lighter and stronger 
metals; cheaper and more durable batteries; cleaner power plants; 
reduced reliance on foreign energy; a clearer picture of our changing 
climate; and even a better understanding of the origins of the universe 
and the nature of space and time.
    Perhaps most important, we get the talent and technologies that 
provide for stronger and more competittive high-tech and manufacturing 
sectors in the U.S. We get jobs.
    I don't see much distance between Republicans and Democrats in 
terms of supporting the Office of Science and sustaining these 
facilities at a level where they can truly contribute to our Nation's 
competitiveness.
    I hope my Republican colleagues will not use this hearing to 
justify drawing an arbitrary and unrealistic line around the 
appropriate role of government in the energy technology space. We have 
seen a dangerous and misguided effort to label DOE activities beyond 
basic research as ``picking winners and losers'' and ``crowding out 
private investment'' for the purpose of cutting research in clean 
energy technologies and slashing budgets of EERE and ARPA-E.
    This perspective assumes that technology always develops in a 
linear fashion, that there are no market failures or ``valleys of 
death,'' and that the private sector and the market have the capcity 
and incentive to support real innovation fully on their own.
    On the contrary, the testimony from this panel of experts shows the 
complexity and difficulty that technology developers face in moving 
from idea to marketable products. It is dogma, and not market reality, 
that dictates where we draw a line in providing government resources to 
help our Nation's innovators to be competitive.
    The Office of Science user facilities is an essential tool for 
helping many academics and industry researchers get beyond otherwise 
daunting scientific or technological problems, and I expect that they 
will always be a shared priority of both Democrats and Republicans.
    But we would be well served to remember that these user facilities 
are by no means the only tools we have at our disposal. What have come 
to be regarded as the ``applied'' programs at DOE, such as EERE and 
ARPA-E, can play an equally important role in moving concepts and 
technologies through research barriers that a light source or 
supercomputer can't solve.
    Far from picking winners, these programs identify the other gaps, 
or ``white spaces,'' where some extra resources and guidance might help 
the developer get beyond some technological risk and accelerate the 
development process. If you want to see what picking a winner looks 
like, just check out what our counterparts in Europe and Asia are 
willing to do to support innovation and domestic companies.
    If we truly want to make government work for the people, facilitate 
our domestic industrial sector's race for global technological 
leadership, and bring real jobs back to the U.S., then we will drop the 
stale, dogmatic, and often illogical constraints that keep us from 
fully taking advantage of our government's resources. Our economy was 
built on science. From achievements in the human genome to sending a 
man to the Moon, the Federal Government has effectively supported a 
strong innovation backbone for a century of economic success. Why stop 
now when the stakes are so high? Why limit ourselves?

    Chairman Harris. Thank you very much, Mr. Miller.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witnesses. The 
first witness is Dr. Tony Lanzirotti, Chairman of the National 
User Facility Organization. He is a Senior Research Associate 
at the University of Chicago's Center for Advanced Radiation 
Sources. He has been a research scientist with the University 
of Chicago since 1999 and helped develop and operate X-ray beam 
lines for the user community at multiple DOE facilities.
    Our next witness is Dr. Persis Drell, the Director of the 
SLAC National Accelerator Laboratory. Dr. Drell is an expert in 
particle astrophysics research. Prior to being named the 
director, Dr. Drell served as a Professor and Director of 
Research at the laboratory. Previously, Dr. Drell held 
positions at Cornell University's Laboratory of Nuclear Studies 
and Physics Department.
    I now yield to Mrs. Biggert to introduce our third witness, 
Dr. Wasserman.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Our third witness today is Dr. Stephen Wasserman, Senior 
Research Fellow in the Translational Science and Technologies 
Department at Eli Whitney--I mean Ely Lilly and Company. He is 
the Director of the Lilly Research Laboratory's Collaborative 
Access Team at the Advanced Photon Source located at Argonne 
National Laboratory in my district. Prior to joining Ely Lilly, 
Dr. Wasserman was a Senior Director of SGX Pharmaceuticals and 
he has also served as a Senior Director for DC. Genetics. Thank 
you, and welcome, Dr. Wasserman.
    Chairman Harris. Thank you, Mrs. Biggert.
    Our fourth witness today will be Ms. Suzy Tichenor, 
Director of Industrial Partnerships Program for Computing and 
Computational Sciences at Oak Ridge National Laboratory. Ms. 
Tichenor has more than 20 years of experience in creating 
partnerships and programs at all levels of the government, 
private sector and not-for-profit organizations. Prior to 
joining Oak Ridge, she was Vice President of the Council on 
Competitiveness and directed the council's High-Performance 
Computing Initiative where she served as the Principal 
Investigator for high-performance computing-related grants.
    I now yield to the gentleman from New York, Mr. Tonko, to 
introduce our fifth witness.
    Mr. Tonko. Thank you, Mr. Chair.
    I am very pleased to introduce Dr. Ernest Hall, the Chief 
Scientist for Materials Characterization in the chemicals and 
chemical engineering domain at General Electric's Global 
Research Center in Niskayuna, New York. Dr. Hall, for whom I 
have great respect, has been with GE since 1979 and was 
promoted to Chief Scientist in 2008. He serves on a number of 
scientific advisory boards to the Department of Energy and is 
an author of over 175 technical papers. He recently was elected 
President of the Microscopy Society of America. Dr. Hall has a 
great deal of experience working at our DOE facilities. We are 
very fortunate to have him with us to testify this morning. 
Welcome and thank you for being here and to offer us your 
expert testimony on the importance of these DOE user 
facilities. So welcome, Dr. Hall.
    Chairman Harris. Thank you very much, Mr. Tonko.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize our first witness, Dr. Lanzirotti, to 
present his testimony.

              STATEMENT OF DR. ANTONIO LANZIROTTI,

         CHAIRMAN, NATIONAL USER FACILITY ORGANIZATION

    Mr. Lanzirotti. Chairman Harris, Ranking Member Miller and 
distinguished Members of the Committee, I thank you for this 
opportunity to testify. My name is Antonio Lanzirotti. I am a 
Senior Research Associate with the University of Chicago's 
Center for Advanced Radiation Sources, and it has also been an 
honor for me to serve this past year as the elected Chair of 
the National User Facility Organization. It is in that capacity 
that I am here testifying before you today.
    Our organization was established to facilitate 
communication among researchers that utilize our Nation's 
scientific user facilities and facility administrators and 
stakeholders. We are a volunteer, nonprofit group, and it is 
our hope that through these efforts we can educate our 
scientific peers and the American public of the availability, 
benefits and significance of research conducted at these 
facilities and provide a conduit for the user community to 
disseminate recommendations of what we perceive are their 
operational needs.
    Today, our organization represents the almost 45,000 
scientists who conduct research at the 46 largest federally 
funded facilities in the United States. Of these, 36 facilities 
are managed by DOE, representing almost 37,000 scientists each 
year. These users reside in all 50 states, in the District of 
Columbia, in our U.S. territories, and many are international 
scientists that travel here to conduct their research using 
these tools. These scientists come from close to 600 
universities in the United States. Roughly 7,000 of them are 
students and postdoctoral researchers who depend on access to 
facilities to complete their education and train to be future 
scientists and engineers.
    Our community includes scientists from 400 unique 
companies, including 45 Fortune 500 companies, who often use 
multiple facilities in their research. These facilities allow 
us to study our world and our universe with efficiencies orders 
of magnitude higher than what is possible with smaller-scale 
instruments at our home institutions. It would simply be too 
costly and complex today for facilities such as these to be 
constructed and operated by universities or industry on their 
own.
    These thousands of researchers also leverage their access 
to DOE user facilities to maximize their productivity, research 
funded not only by DOE but NSF, NIH, NASA, DOD and private 
industry, to name only a few.
    The tremendously broad scope of science these facilities 
have allowed us to address is often underappreciated, impacting 
virtually every scientific field of study both in fundamental 
and applied sciences. For example, synchrotron X-ray facilities 
have revolutionized the way that diffraction data is being 
collected. Macromolecular protein crystallography using these 
sources has allowed researchers to study biological molecules 
such as proteins, viruses and nucleic acids to a resolution 
higher than five angstroms. This high resolution has allowed 
life scientists to elucidate the detailed mechanisms by which 
these molecules carry out their functions in living cells, and 
the societal benefits of this research are tangible. As an 
example, scientists from Plexxikon, a Berkeley-based drug 
discovery company, used this technique to cocrystallize a 
mutated protein involved in the development of malignant 
melanoma along with molecular lead compounds for candidate 
drugs. Identifying the most promising lead allowed them to 
identify potential drug candidates that could stop the 
disease's spread. This led to the development of a new drug 
that has been demonstrated to successfully treat patients with 
late-stage or inoperable forms of the disease, receiving FDA 
approval in August of 2011.
    Material scientists are using these facilities to improve 
integrated circuit designs for chip verification. Engine 
designers are using facilities to design catalysts for 
improving engine efficiency and reducing emissions. Companies 
such as GE are using DOE computing facilities to model complex 
flow in developing quieter, more fuel-efficient wind turbines 
and jet engines, and scientists have used these facilities for 
fundamental research, for example, investigating the sources of 
dark matter and dark energy in our universe.
    In the last 10 years, we have entirely new classes of 
facilities that are transforming our research such as the Nano 
Science Centers and the LCLS. New facilities under 
construction, such as NSLS-II at Brookhaven and vital upgrades 
such as the planned LCLS-II upgrade in SLAC and the APS upgrade 
at Argonne, are necessary for improving efficiency and capacity 
and for delivering new capabilities to keep U.S. facilities 
world leading.
    Yet in building capacity and improving efficiency, 
facilities have experienced funding shortfalls that often 
prevent them from operating at optimum levels, keeping 
instruments upgraded and providing adequate number of staff to 
support user research to maintain our Nation's leadership 
position. Providing operating budgets that allow these 
facilities to achieve their designed-for capacity and to hire 
and retain top scientific and technical talent should be a high 
priority.
    National user facilities provide a broad research 
infrastructure that enables researchers to access specialized 
instrumentation and capabilities as well as technical expertise 
from experienced scientists and engineers. Access to these 
facilities enables scientists to pursue frontier research leads 
to fundamental scientific discoveries and enables downstream 
technological developments for real-world industrial 
applications. The United States is unique in having such a 
large array of user facilities. Many countries have some 
subset, but no other country provides access to such a diverse 
group of facilities covering so many areas, giving the United 
States academic and industrial researchers unequaled 
opportunities.
    Thank you.
    [The prepared statement of Mr. Lanzirotti follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Harris. Thank you very much.
    I now recognize Dr. Drell for five minutes to present her 
testimony.

            STATEMENT OF DR. PERSIS DRELL, DIRECTOR,

              SLAC NATIONAL ACCELERATOR LABORATORY

    Ms. Drell. Chairman Harris, Ranking Member Miller and 
Members of the Subcommittee, I am very pleased to be here today 
to talk about SLAC National Accelerator Lab and the Linac 
Coherent Light Source.
    As you are going to be hearing from other witnesses, DOE 
user facilities producing intense beams of X-rays have been 
doing research with tremendous societal impact for several 
decades. X-rays are particularly sensitive scientific tools, 
powerful scientific tools because they see through matter and 
they tell us where atoms are. At SLAC, we have just turned on 
the newest X-ray facility, the Linac Coherent Light Source, or 
LCLS, whose ultra-bright, ultra-short pulses of X-rays are 
revolutionizing our ability to look at matter by letting us for 
the first time see motion on the atomic time scale.
    So I want to illustrate the power of LCLS with an analogy. 
In the late 1800s, there was a lot of interest in the mechanics 
of how a horse galloped. There was a famous bet involving 
Senator Leland Stanford, and the bet was about whether all four 
hooves of the horse left the ground. Eadweard Muybridge devised 
a camera with a very fast shutter speed to resolve the bet by 
taking a series of crisp stop-action pictures, putting them 
together into a movie, which you see shown here. As you can 
see, this movie resolved the question, and we know as a result 
that a galloping horse does, in fact, take all of its four feet 
off the ground when it gallops.
    Now, just imagine if we could do this at the atomic scale. 
Imagine if we could take a series of crisp stop-action pictures 
of chemistry in motion and watch a reaction atom by atom and 
step by step, and this is the new scientific frontier that has 
been opened by the Linac Coherent Light Source.
    Right now, as I speak, experimenters at SLAC, users at our 
facility, are trying to understand photosynthesis, that very 
basic life process, by taking a series of stop-action pictures 
in much the way that Muybridge took a series of stop-action 
pictures of the galloping horse.
    We have long known that in photosynthesis, we take CO<INF>2</INF> 
and water, put it together with sunlight and we make oxygen and 
sugars, but with a multi-step process we don't know the 
details. With an understanding of how it works, we can start to 
re-engineer it and exploit it in new ways. I think it will be a 
decade or more, just to manage expectation, before society 
directly benefits or an industrial application emerges, but I 
am also confident that with time, this will be game-changing.
    More speculative applications of the LCLS but maybe even 
more revolutionary have to do with LCLS's ability to image 
viruses and perhaps some day even selected cells. This is in 
the early technology development stage but the potential is 
enormous as it might offer revolutionary new insights into the 
workings of the living cell.
    So the LCLS is unique in the world in its ability to 
deliver these ultra-fast, ultra-bright X-rays, but there is 
significant worldwide competition coming as Japan, Germany, 
China and Switzerland are all moving to catch up, particularly 
now that we have demonstrated that this works.
    To stay competitive, we are already working to expand the 
capability and capacity of this discovery-class machine with 
the LCLS-II. The LCLS-II is supported in the President's budget 
request and is included in the House energy and water bill as 
part of the BES budget, for which we are very appreciative.
    User facilities like the LCLS are expensive to build and 
operate. No one industry or research enterprise can afford to 
build one for itself. The Federal Government through the Office 
of Science and DOE, funds the building and operations of the 
facilities at the national labs, and scientists from around the 
world compete for beam time with peer-review proposals. We are 
currently preeminent in many areas of science with our user 
facilities. We will need continued stable funding for the DOE 
Office of Science to keep our world-leading position.
    Mr. Chairman, Members of the Subcommittee, let me end with 
a somewhat philosophical statement. Over 400 years ago, Flemish 
spectacle makers invented a spyglass, and the reason they 
invented the spyglass was to be able to see ships far from 
harbor to tell if they were friend or foe. Galileo took that 
spyglass, made it better by a factor of 10, turned it on the 
heavens, and revolutionized our view of the cosmos. The LCLS 
was built because we knew that tudying materials on the atomic 
time and distance scales would open new frontiers in drug 
discovery, materials and chemistry research. But all of us 
believe that with this new X-ray source, a billion times 
brighter than anyone has had before, the biggest scientific 
surprises are yet to come.
    Thank you for the opportunity to provide my perspective as 
SLAC's Director, and I look forward to your questions.
    [The prepared statement of Ms. Drell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Harris. Thank you very much.
    I now recognize Dr. Wasserman to present his testimony.

              STATEMENT OF DR. STEPHEN WASSERMAN,

             SENIOR RESEARCH FELLOW, TRANSLATIONAL

                  SCIENTIST AND TECHNOLOGIES,

                     ELY LILLY AND COMPANY

    Mr. Wasserman. Chairman Harris, Ranking Member Miller, and 
Members of the Subcommittee, my name is Stephen Wasserman. I am 
a Senior Research Fellow in the Translational Science and 
Technologies Department of Lilly Research Laboratories, the 
research arm of Ely Lilly and Company. It is a pleasure to be 
here this morning to describe our company's work at the 
Advanced Photon Source of Argonne National Laboratory, one of 
the four X-ray synchrotron user facilities operated by the 
United States Department of Energy. The partnership between our 
company and the APS is an important part of our effort to 
deliver innovative new medicines to the patients who need them.
    Lilly has been a continual user of the Advanced Photon 
Source since the first days of the facility. Today we operate 
our own X-ray beam line for protein crystallography, the Lilly 
Research Laboratory's Collaborative Access Team, LRLCAT, of 
which I am the Director. Each year, we analyze more than 10,000 
crystalline samples. Most of these crystals contain both 
proteins that are targets for the treatment of disease and 
small chemical compounds of interest in the development of 
potential new medicines.
    The experiments at the APS permit us to examine the 
interaction between the protein and small molecule atom by atom 
and to develop innovative new ways to optimize that 
interaction. Through this detailed microscopic view, we seek to 
maximize the efficacy of new pharmaceuticals and minimize side 
effects.
    Today our company has more than 10 experimental compounds 
in phase I and phase II clinical trials that were developed 
with the aid of the Advanced Photon Source. In addition, 
experiments at the APS support research on more than one-third 
of the protein targets in Lilly's early-stage drug discovery 
portfolio. The therapeutic research areas that benefit from the 
APS are diverse including cancer, diabetes, autoimmune, 
psychiatric disorders and neurological conditions such as 
neurodegeneration and pain.
    Our work on the protein known as beta secretase, a 
potential target for the treatment of Alzheimer's disease, is 
illustrative of the interface between experiments at the APS 
and Lilly's drug discovery research. The crystallographic 
effort that included the APS has to date resulted in the 
determination of the three-dimensional structures of more than 
400 different compounds bound to the protein. The total effort 
in developing a molecule that can be tested in clinical trials 
extends far beyond our experiments in crystallography. 
Considerable work was required to design candidate molecules 
and evaluate their properties involving our colleagues in 
biology, chemistry, data analysis and medicine. This endeavor 
has resulted in an investigational new drug whose phase II 
clinical testing will soon commence.
    We urge Congress to continue to support our country's 
national user facilities and the national laboratories in which 
many are located. The Advanced Photon Source and other U.S. 
synchrotron sources need a reliable funding stream. The quality 
of the data obtained at the APS cannot be duplicated elsewhere 
in the United States. If the light sources were not available 
or their operating schedule substantially reduced, we at Lilly 
would be forced to consider moving our experiments to other 
countries. We have performed recently, or are scheduled to 
perform in the near future, experiments in Canada, the United 
Kingdom, France and China. Reliance on facilities outside the 
United States, however, would slow the pace of our research and 
impact how soon new treatments become available to patients.
    The relationship between the national user facilities and 
their users is strong. This relationship can be enhanced by 
further development of the technical and organizational 
environment the facilities provide. Potential enhancements 
include modifications to the agreements between user and 
facility, especially for industrial and proprietary users and 
operators of individual beam lines from outside the Department 
of Energy.
    The addition of automation to speed the execution of 
experiments and reduce future costs would maximize scientific 
value for the facilities. Implementation of upgrades for the 
core machines and, where present, ancillary experimental 
stations is necessary. We at Lilly have seen how with time 
operations can be held hostage to deprecated and aging 
equipment. Indeed, that was one of the motivations for our own 
recent upgrade at LRLCAT. The APS and its sister facilities 
have similar issues though on a much larger scale.
    As Drs. Drell and Lanzirotti have already noted, the 
national user facilities are too large for any one 
organization, corporate or academic, to consider building on 
its own. The United States Government had foresight to 
recognize that it alone could construct this scientific 
infrastructure. By creating and running such facilities, it 
provides an essential service for the country's technological 
development. The result is a collection of scientific resources 
of which the Nation should be justly proud.
    In conclusion, I would like to return to a statement we 
made at the exhibitions on national user facilities that the 
NUFO organization presented for Congress at the end of March. 
Recently in meetings on Capitol Hill, a colleague echoing the 
opening of Charles Dickens' A Tale of Two Cities described the 
current environment for science as the best of times and the 
worst of times. Dickens' worst, best and worst, are, however, 
absolute; science is rarely so. It continually builds on what 
is already known. That is why science must always move forward 
rather than being executed intermittently. A better descriptor 
of the promise of national user facilities for our future can 
be found in a slight modification of the end of Dickens' novel. 
Provided the federal budget for national user facilities 
remains intact, the research and innovation at these facilities 
will be a far, far better thing that we do than we have ever 
done.
    Thank you.
    [The prepared statement of Mr. Wasserman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Harris. Thank you very much.
    I now recognize Ms. Tichenor for five minutes to present 
her testimony.

                STATEMENT OF MS. SUZY TICHENOR,

           DIRECTOR, INDUSTRIAL PARTNERSHIPS PROGRAM,

             COMPUTING AND COMPUTATIONAL SCIENCES,

                 OAK RIDGE NATIONAL LABORATORY

    Ms. Tichenor. Mr. Chairman, Ranking Member Miller and 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today. My name is Suzy Tichenor and I am 
Director of the High-Performance Computing Partnership Program 
at Oak Ridge National Laboratory in Oak Ridge, Tennessee. It is 
an honor to provide this testimony on the role of the Oak Ridge 
leadership computing user facility and our HPC partnership 
program in strengthening the U.S. scientific enterprise.
    As a DOE lab, Oak Ridge actually manages nine national 
scientific user facilities including the Oak Ridge Leadership 
Computing Facility, which I will refer to as OLCF from here on. 
These distinctive experimental and computational facilities 
enable research essential to accomplishing DOE missions. In 
addition, the DOE user facilities are open to all interested 
and potential users and are allocated on the basis of rigorous 
merit review of the proposed work. The OLCF is home to one of 
DOE's most powerful supercomputers for open science research, a 
Cray XK6 called Jaguar. It is also home to a rare team of some 
of the most experienced computational scientists in the world. 
As we like to say, it is the people, and we are very blessed to 
have some of the very best. This combination of leadership 
computing systems and world-class expertise gives researchers 
and opportunity to tackle challenges that are well beyond the 
capabilities of their internal resources.
    In 2009, we established an industrial HPC partnership 
program to make the OLCF more accessible to industry, and we 
consider the program to be a triple win. Oak Ridge and DOE 
benefit from the opportunity to engage with some of the best 
thinking in corporate America as companies pursue scientific 
challenges in their quest to develop innovative products and 
services, and often these science challenges are very 
complementary to research that is underway at the lab. U.S. 
industry benefits through the reduction in time to insight and 
time to solution that it gains from access to the OLCF 
resources, and as industry, Oak Ridge and DOE advance in their 
science understanding, they are strengthening the Nation's 
innovation infrastructure and creating competitive advantage 
for the country through new discoveries enabled by these 
partnerships. After only three years, we are seeing very 
encouraging evidence that our industry program is helping to 
expand and accelerate U.S. industrial use of large-scale 
modeling and simulation for competitive gain with real results.
    GE Global Research and United Technologies Research are 
each using Jaguar to tackle different problems relating to more 
energy-efficient jet engines. A one percent reduction in the 
specific fuel consumption can save billions of dollars over the 
life of a fleet of airplanes, so UTRC, for example, is using 
Jaguar to better understand the air-fuel interaction in 
combustors, a critical component of aircraft engines, and 
access to Jaguar enabled UTRC to run simulations that were 64 
times larger than what they could do in-house. GE used Jaguar 
to study for the very first time the unsteady air flows in the 
blade rows of turbo machines such as the very large-diameter 
fans that are used in modern jet engines. Unsteady simulations 
are orders of magnitude more complex than simulations of steady 
flows, and GE simply was not able to do these on their in-house 
systems.
    But GE realized another benefit from access to our user 
facility. The insights that they gained from their project at 
OLCF provided the substantial return on investment 
justification they needed for significant upgrade to their own 
HPC capabilities in-house, and they made those upgrades after 
the project was completed.
    Small companies, the backbone of the economy, also benefit 
from the user facility. Ramgen Power Systems, a small, Seattle-
based energy R&D firm, is using our HPC tools and expertise to 
accelerate the development of a novel compression system for 
carbon sequestration, and in the process, they have really 
become the poster child for dramatic advances that a company 
can make in its own modeling and simulation abilities. When 
they began their project, they were only able to really use 
successfully several hundred processors and now they are 
successfully running ensembles of simulations using over 
120,000 processors. This has reduced what used to be months of 
work and research to a mere eight hours. These are the game-
changing advances that companies can achieve and the return on 
investment that the country receives from this particular user 
facility.
    The industrial HPC partnership program is also providing a 
gateway for companies to tap into other resources and 
facilities at the lab that they may not have been aware of if 
they had not been working with us. For example, one firm that 
used Jaguar is now expanding its work to include more detailed 
modeling and simulation of materials with researchers at our 
center for Nanophase Materials Science user facility and are 
coupling that with experimental analysis that tapes into the 
neutron-scattering research capabilities at our Spallation 
Neutron Source user facility. So this is really very exciting 
to see a firm integrate the capabilities of multiple user 
facilities at the lab to tackle much more complex scientific 
problems.
    In summary, by enabling companies to realize the benefits 
of high-performance computing through access to the OLCF, Oak 
Ridge is helping companies make progress on important 
scientific challenges with strategic business implications and, 
in so doing, is strengthening the Nation's innovation 
infrastructure for national security and economic strength.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Ms. Tichenor follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Harris. Thank you.
    I now recognize our final witness, Dr. Hall, for five 
minutes to present his testimony.

                 STATEMENT OF DR. ERNEST HALL,

            CHIEF SCIENTIST, CHEMISTRY AND CHEMICAL

            ENGINEERING/MATERIALS CHARACTERIZATION,

                       GE GLOBAL RESEARCH

    Mr. Hall. Chairman Harris, Ranking Member Miller, 
Congressman Tonko and Members of the Committee, I am pleased to 
share with you General Electric's perspective on how the 
Department of Energy programs and processes can be strengthened 
to better serve the needs of industrial partners and the 
demands of the energy marketplace. I commend the Committee for 
focusing on a topic that has far-reaching implications for 
ensuring the future competitiveness and growth of our Nation's 
economy.
    As you have heard, I represent GE Global Research in 
upstate New York, where we have 2,000 research employees 
working every day to develop and deliver critical technologies 
to our businesses. We support a global company with interests 
that span several industries from energy, aviation and 
transportation to water, health care and finance.
    Today, America's companies are facing increasing global 
competition and environments that require us to innovate 
differently. With materials in shorter supply, manufacturing 
becoming more complex, and pressure rising to get new products 
to market faster, it is clear that a strong commitment to 
innovation and the ability to rapidly commercialize new 
technology will be a key factor in who succeeds.
    Fortunately for the United States, our innovation remains 
the world's best. We have a wealth of world-class universities, 
federally funded research and development centers, and 
industrial research labs producing great technology. To fulfill 
the promise of these investments in these institutions, we must 
update our innovation model by increasing collaborations across 
this network, working more in parallel between the domains of 
design innovation, manufacturing innovation and materials 
innovation, and making sure science and technology objectives 
are in concert with industrial needs.
    Our work with various DOE scientific user facilities serves 
as a good example of these collaborative models. The Basic 
Energy Sciences facility for synchrotron, neutron and electron 
studies of the structure and chemistry of materials provides a 
compelling illustration.
    Later this summer, GE will open its new $100 million high-
tech battery business in Schenectady, New York, creating 350 
manufacturing jobs at full capacity.
    One of the key technical challenges in developing our 
battery was improved fundamental understanding of the battery 
chemistry. At the National Synchrotron Light Source at 
Brookhaven National Lab, GE scientists were able to work with 
scientists from Rutgers and Brookhaven to measure the chemical 
processes on full operating commercial battery cells. This 
synchrotron provided access to the most advanced 
characterization capabilities that no one institution, 
university or industry could afford to construct or fully 
utilize. It allowed us to gain a greater understanding of our 
battery's materials and systems than we could using our own 
instrumentation in-house and shows what can result when you 
match the world-class research capabilities of these facilities 
and our universities with an industry need.
    In my written testimony, I cite other examples including 
work at Argonne National Lab and other BES facilities where we 
are working on 3D microscopy techniques to improve the 
materials of aircraft engines and gas turbines and conducting 
fundamental studies on photovoltaic devices.
    As you have heard, another truly great asset America has is 
our network of high-performance computing resources at the 
national labs. As in many other industries, computational 
modeling and simulation plays a critical role in addressing 
many of the research problems we face at GE. The ability to 
carry out experiments in a faster, more robust way, high-
performance computing provides an invaluable tool in 
accelerating innovation, leading to new product development, 
particularly in the energy sector.
    You have heard about the work that we have been doing with 
GE's newest cutting-edge aircraft engine, the GEnx, powering 
Boeing's new 787 Dreamliner and incorporating capabilities that 
were enabled through high-performance computing. We believe, as 
Ms. Tichenor said, that another one to two percent in fuel 
reduction in fuel consumption can be achieved, which would 
translate into hundreds of millions of dollars in annual fuel 
savings to the aviation industry, increasing the competitive 
posture of U.S. manufactured aircraft engines and retaining 
more jobs in our U.S.-based aircraft engine factories, 
achieving those reductions through high-performance computing.
    We have also recently been selected by Lawrence Livermore 
National Lab to participate in an incubator program, 
hpc4energy, which will focus on next-generation fuel injectors, 
and we also have ongoing programs with Argonne and Oak Ridge 
national labs in advanced turbo machinery design.
    I hope these brief examples illustrate the great value of 
DOE's scientific user facilities.
    I would like to conclude, very briefly, with a few 
recommendations on how DOE programs and facilities could be 
strengthened and made more effective. We encourage continued 
investment in major scientific user facilities and in 
particular funding to staff and optimally operate and utilize 
these very complex facilities. U.S. industry and scientists 
would be at a clear disadvantage with respect to their global 
counterparts without access to these cutting-edge capabilities. 
Most important, policies need to be enacted that expand 
industrial access to these facilities.
    Second, DOE lab and user facility investment need to be 
prioritized to focus on the key challenges associated with 
energy technologies from basic science through applied research 
leading to scale and commercialization.
    Finally, we need new collaborative models that allow 
different stakeholders--government, university and large and 
small companies--to come together and advance science and 
technology programs in new ways. In our written testimony, we 
point to the SEMATECH model, which brought together many 
parties within the semiconductor industry to help reestablish 
American leadership in this area of technology.
    Chairman Harris, I want to thank you again for the 
opportunity for GE to testify. It is an important and timely 
conversation as we look to ways to enhance America's future 
economic competitiveness and capacity for new growth and jobs.
    [The prepared statement of Mr. Hall follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Harris. Thank you very much. I want to thank the 
witnesses for being available for questioning today, reminding 
Members the Committee rules limit questioning to five minutes. 
I will open the round of questions, and I am first going to 
recognize the gentleman from California, Mr. Rohrabacher, for 
five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and let 
me compliment the panel. You crammed so much information into 
so little time. You must have had some computers helping you 
out to develop that strategy because it was just amazing.
    Let me just touch on some points here. We are going through 
this period of time in Washington, D.C., where we have got this 
budget deficit hanging over our head. All right. It is hanging 
there, and there was a quote from some New York politician who 
said the sword of Damocles is hanging right over Pandora's Box 
or something like that. We have got a major challenge before 
us. How can we actually--and you very well explained the value 
of what your facilities provide this country and provide the 
world in terms of scientific exploration and development of new 
ideas, making them real. What percentage of that work that is 
done is done on scientific research specifically for the DOE 
and how much is done with private-sector groups and is there a 
way--and who then owns the actual intellectual property that is 
being developed by this great investment? Is there a way that 
we can in some way tap into that as a means to help finance 
your operations? All the way down, whoever is the most expert 
on that.
    Dr. Lanzirotti. One of the things that is often 
underappreciated for many of the Office of Science facilities 
is that access to the facilities is done through a peer-review 
process. In fact, it is varied by the different facilities but, 
you know, from what we have done in terms of looking at metrics 
for the industrial community utilization is seven percent, 10 
percent. The vast majority is actually from the research 
university community done through peer review, you know, from 
different organizations. So the benefit is really in terms of 
the research that they do, the fundamental research. You know, 
the industry users take that information and make it more into 
an applied research component, and it is that access to the 
facilities that we can't get in terms of what we do at our home 
institutions that lets us produce, you know, the fundamental 
science for the country.
    Mr. Rohrabacher. Well, take the engines, the jet engines we 
were talking about. It was a good point. If we can make these 
jet engines with the equipment that we have one percent more 
efficient, we have saved hundreds of millions of dollars for 
somebody. Is that possible? Number one, do Boeing and these 
companies, how much do they pay, and should they then if they 
achieve something, should you--how much of that is owned by 
your research facilities and by your institutions, by the 
government?
    Dr. Hall. So I would just make the point that our use of 
the scientific user facilities is part of a very large 
technology development program that is taking place in-house in 
which, for example, GE is investing millions, in some cases 
billions, of dollars to bring a technology to marketplace, 
particularly a technology as complicated as a new aircraft 
engine platform, a new engine. And so that is our investment, 
our stake in this. As part of that development, we will use the 
national user facilities in a non-proprietary way doing 
research that is open to the world to see and to benefit from, 
and we will use those results as part of our technology 
development.
    Mr. Rohrabacher. Is that paid for? Is there a fee involved 
to this facility to the Federal Government?
    Dr. Hall. The vast amount of what we do is actually done 
open through the proposal process and so it is non-proprietary, 
publishable research. There is a fee structure for any 
proprietary research, for any research we want to do where we 
do not want to reveal the results of those.
    Mr. Rohrabacher. So you only pay for that you are going to 
fence off, but there is no fee just to go in and utilize the 
facility?
    Dr. Hall. With the caveat that we need to pass the usual 
scientific quality screens. This is done----
    Mr. Rohrabacher. Oh, yeah, sure. I understand that.
    Well, thank you very much, Mr. Chairman.
    Chairman Harris. Thank you very much.
    I now recognize the Ranking Member, Mr. Miller, for five 
minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    Dr. Hall, we do hear a lot about government picking winners 
and losers in this Committee, crowding out private investment, 
particularly in energy, by sponsoring applied research and 
later stage, any kind of later stage activity. But is there 
really that little space to invest that what the government 
does is going to crowd out private investment? And what does it 
really take to pick a winner? Could you give us an example 
showing the steps that have to go, that really go into moving 
an idea from research to the marketplace and how much 
investment is involved?
    Dr. Hall. Well, I can speak to my experience, and that is 
that today's technologies are incredibly complex and very 
difficult to move from the area of idea through discovery, 
feasibility, pre-product, product and finally into the 
marketplace. In my testimony, I talked a lot about the need for 
collaboration across university and government lab and industry 
in order to accelerate those innovations and enhance America's 
competitiveness. The investments that the Department of Energy 
make in technologies are at the--in the area of discovery and 
initial feasibility, and these are extremely useful to explore 
very high risk but potentially very high reward concepts.
    Further, there is, as you know, great difficulty in that 
area of funding that moves beyond feasibility into, you know, 
building a plant, perhaps a many-hundred-dollar plant in order 
to produce a technology. And so broad partnerships such as the 
SEMATECH model, I think, are very important in order to 
accelerate this technology development and make America most 
competitive in this rapidly changing world.
    Mr. Miller. And how do our efforts compare with what our 
competitors in Europe and Asia are doing to accelerate 
technologies? Dr. Hall again, yes.
    Dr. Hall. Well, if we look specifically at the scientific 
user facilities, we know that for other parts of the world such 
as the E.U. and Asia and even Canada, their scientific user 
facilities are much more aggressive in seeking industrial users 
with the encouragement of their governments. We see that in 
many cases targets such as 20 percent of the utilization of the 
scientific user facilities by industry are set where in the 
United States--and perhaps other members of the panel have more 
information on that. My understanding is the numbers are around 
five to seven percent.
    But it is important to understand that in addition to 
simply setting targets, one needs to put in the structures and 
policies that make the use of the scientific user facilities 
and the government labs more inviting to industry. One needs to 
have these facilities fully staffed. One needs to have the 
policies to provide particular help for small businesses, for 
example. One needs to continue to do the outreach and education 
about what our government labs can bring to private industry in 
order to enhance their technology development. It is our 
observation, I think, that other parts of the world, the 
governments realize clearly that they need to assist their 
industry in order to be globally competitive and we see this in 
many cases.
    Mr. Miller. We do--there is a debate within this Committee 
and within Congress on the distinction between applied versus 
basic research, and curiously, it seems to justify lavish 
funding for nuclear and fossil fuel research, which appear to 
be mature industries that are already well funded, and to 
justify cutting research for vulnerable new technologies, 
emerging technologies. How would you define applied versus--Dr. 
Hall again--applied versus basic research and how useful is 
that distinction?
    Dr. Hall. In my world, that is not a distinction that we 
use very much. We think about, you know, going from idea to 
feasibility to sort of pre-product demonstration to product 
development to commercialization, and where you make that 
distinction between basic and applied is difficult to see. At 
my lab at Global Research, we are primarily working in the 
discovery part, which you might call basic research, but what 
we always have is an eye on how do we commercialize this, how 
do we pull in the ideas of manufacturing and design and 
materials availability into the process even at the discovery 
phase. So technology development these days is, I think, much 
more complicated than just a simple description of basic and 
applied.
    Mr. Miller. My time has expired.
    Chairman Harris. Thank you very much.
    I would like to remind the Members, we would like to limit 
it to five minutes. We have a very long series of votes coming 
up on the Floor, and I would like to complete the hearing and 
adjourn before we leave for the votes. So again, just reminding 
the Members, try to keep the questions to five minutes.
    I recognize the gentleman from Texas, Mr. Neugebauer, for 
five minutes.
    Mr. Neugebauer. Thank you, Chairman, and thank you for 
calling this hearing.
    I want to kind of go back with the line of questioning that 
Mr. Rohrabacher was talking about, and I think all of us are 
trying to figure out with the limited resources that we are 
going to have if we are going to leave any kind of future for 
our children and grandchildren, we are going to have to look at 
prioritizing the way we spend the American taxpayers' hard-
earned money, and I think, Dr. Lanzirotti, you said that only 
12 percent of the research going on at the laboratories is 
really applied research, and I guess that would mean that 88 
percent of it is then fundamental research. Is that correct?
    Dr. Lanzirotti. More specifically, I think when we look 
across the user facilities that at least we represent that 
those would be classified as industrial researchers, people 
that come from industry tends to average around seven percent, 
10 percent. It really depends on the type of facility. 
Computing facilities, for example, may attract more industrial 
users than light sources, for example. But it does mean that 
the vast majority of the researchers in many of the facilities 
that we see are from research universities, from other 
laboratories, but much of the research they do may be 
fundamental or what you call basic research but they are also 
doing applied research at the university level as well.
    At the Advanced Photon Source, for example, we talked a 
little bit today about some of the work that we are doing in 
drug discovery through macromolecular crystallography. Many of 
the consortia that we see at the Advanced Photon Source are 
university laboratories that are doing, you know, drug 
discovery and looking at macromolecular crystals for next-
generation drugs. So you can classify that as applied science 
but it comes from the university environment.
    Mr. Neugebauer. So here is a follow-up question then. If 
GE, for example, Dr. Hall said, you know, when they go in and 
they are going to do non-proprietary research, they don't pay 
any user fee because they are going to share whatever findings 
that they have. When they are doing proprietary, then they are 
paying for that. I think the question is, are the universities 
like when they are using the labs, are they paying--because 
they are getting grants to do certain research but then they 
come over to a national lab, do they bring that research money? 
Are they paying fees to the laboratory to support the overhead 
there?
    Dr. Lanzirotti. No.
    Mr. Neugebauer. They are not?
    Dr. Lanzirotti. No.
    Mr. Neugebauer. So I guess the question, it is kind of 
twofold, is, if there is great value to these national 
laboratories, and I think the panel has expressed that, do we 
really kind of need to look at then the possibility of changing 
that funding model some where, you know, GE and other companies 
say, you know, there is value here even when we are doing 
proprietary or non-proprietary research there, we are going to 
make sure, we want to contribute to that? Because I was at a 
fairly major electronic company not too long ago, and we were 
talking about, you know, this very issue, and we were talking 
about, you know, one, of lowering the corporate tax rates and 
leaving more investable money in the economy to create jobs, 
and one of the questions I asked is, you know, would you then 
be willing and open then to, for example, in the funding of 
laboratories and some of the research, since we are going to 
let the corporation keep more of that money, would you be 
willing to contribute to that, and I think the answer was yes.
    What I like about that is that it is another part of the 
review process. I know you said you do peer review when you are 
looking at who gets to use the laboratory. I mean, I just can't 
walk in there and say I would like to work on an experiment. 
You probably wouldn't let me, and when you look at my science 
grades, you for sure probably wouldn't let me. But the other 
token of that is, I think that the private sector also, you 
know, is another review of that where they are willing to 
invest their dollars. Dr. Hall, what would be your response to 
something like that?
    Dr. Hall. So as I understand the question, you were talking 
about the tradeoff between, say, lowering corporate tax rates 
and then increasing costs for using government facilities. Is 
that correct?
    Mr. Neugebauer. Yes.
    Dr. Hall. One aspect of that that one has to realize is 
again for a global company like GE, we will look globally at 
where we can do research at the lowest possible cost because we 
have to worry about our competitiveness as well. You know, we 
have facilities near our research facilities in Europe and in 
Asia and we would need to look at that overall cost. But, you 
know, I don't think I can speak to the tradeoff between tax 
rates and cost of facilities at this time.
    Chairman Harris. Thank you very much.
    I recognize the gentlelady from California, Ms. Lofgren, 
for five minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. I will be quick 
because I know that we are going to have votes called.
    This has been wonderful to hear you, and Dr. Drell, it is 
great to see you. I see you all the time at home.
    You know, one of the things I didn't hear today was any 
concern or objection to the Department of Energy management of 
the use of these facilities. That is being done really through 
the peer-review process, and it is such a contrast to what I am 
hearing for those national labs that are being managed by NNSA. 
I am wondering, Dr. Lanzirotti, as the chief of the users 
group, have you had an opportunity to take a look at the 
National Academy report on the NNSA management of the national 
security labs?
    Dr. Lanzirotti. I actually haven't had an opportunity.
    Ms. Lofgren. Well, I am going to do this. I am going to 
give you a copy of this, and I am going to ask a favor of you 
to take a look at it and whatever insights you have, I would 
very much appreciate receiving and I am sure other Members of 
the Committee would as well.
    Dr. Lanzirotti. I would be very pleased to discuss that 
with the community and----
    Ms. Lofgren. The other thing I would like to mention, I 
just received a copy of a letter from April from Oxford 
University from the head of the user group for the national 
ignition facility talking about the micromanagement of the 
science from the user groups trying to use that facility. It is 
a two-page letter. It asks that we make it available to other 
Members of the Committee, but I would like you, if you wouldn't 
mind, to take a look at this letter as well and to give 
whatever insights you might have on how to correct this 
concern.
    [The information may be found in Appendix 2.]
    Ms. Lofgren. The other question I have, and maybe I will 
ask Dr. Drell because I visit her lab all the time; you know, 
when I go to the lab, I see scientists from all over the world, 
really smart people who are coming here, inventing things, and 
it makes me remember that those postdocs, if they are from 
Britain, we make them go home and start their companies there. 
Do you think our immigration policies of forcing the smartest 
people in the world who want to become Americans with us is a 
positive thing for the advance of science here in the United 
States?
    Dr. Drell. Let me say I am not an expert on immigration 
policy, but I will say that the healthy flow of international 
scientists to our facility, because our beam time is allocated 
on a peer-review basis and the best science gets the beam time, 
that is the lifeblood of the institution and so being able to 
have outstanding scientists from around the world, many of whom 
eventually do either stay or find a reason to come back, is 
essential for science in this country.
    Ms. Lofgren. Thank you.
    I am going to yield back so that other Members can have a 
chance to ask. Thank you very much.
    Chairman Harris. Thank you very much.
    I recognize the gentlelady from Illinois, Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Maybe, Dr. Wasserman, you can talk a little bit about the 
user agreements that you have with Argonne National Lab and how 
Ely Lilly is working with the lab to update agreements but how, 
you know, what you do with the proprietary.
    Dr. Wasserman. So, for background, all the experiments that 
we do at Ely Lilly at the Advanced Photon Source come under 
proprietary user agreements so the DOE calculates what full 
cost recovery for providing the X-rays at the facilities takes 
and we reimburse at that rate to the government for every 
experiment that we do. So all of our work is done in a 
proprietary mode.
    That said, much of the intellectual property provisions 
within the user agreements under proprietary mode give much of 
the rights to the user to develop as we do with 
pharmaceuticals. There are a few ambiguities that are not--that 
remain, particularly in what rights does the government to 
inventions that may come from the facility, etc. This contrasts 
with other facilities that we use outside the United States 
where they basically have if you pay, you own. And so it is a 
little bit more complicated in the United States in order to 
maintain a proprietary footprint.
    Mrs. Biggert. And you say in your testimony that you pay 
the fees for all the proprietary but that sometimes you provide 
available time on that to non-proprietary users from the 
universities so that they have the ability to do that without 
fees?
    Dr. Wasserman. Right. So the Department of Energy, at least 
for the facilities at the synchrotrons, requires that 25 
percent of each beam line--some give more--provide time for 
academic users on each facility. So even if you built it 
yourself, you are providing time for outside users. We actually 
do those experiments for people. They send us the samples and 
we do the experiments for them with our own staff, finding that 
is a particularly efficient way to operate.
    Mrs. Biggert. Then obviously everybody has been talking 
about the upgrade that is needed at the Advanced Photon Source. 
How would that help you to accelerate the drug 
characterization?
    Dr. Wasserman. There are two aspects to that. One is the 
basic age of the machine. The APS will be 20 years old in three 
years, and anything of this complexity needs a checkup once in 
awhile, probably more often than 20 years, and that is one of 
the things that is planned within the Department of Energy 
Office of Science. The other is what the enhanced capabilities 
of the upgrade will give. For example, a class of targets known 
as membrane proteins gives very small crystals. They are very 
hard to grow larger and the enhanced capabilities that would 
come from the upgrade of the APS would allow us to get much 
better quality information that we are able to do even today 
with a state-of-the-art facility.
    Mrs. Biggert. There is a question that NIH has a budget of 
over $30 billion to work on health and enhance life. Because of 
the great contributions of the light sources to advancing NIH's 
mission, do you think that some of their budget might go to the 
Department of Energy to work on this?
    Dr. Wasserman. Well, in the sense, it already has. NIH 
contributed to the upgrade of the Stanford Synchrotron 
Radiation Laboratory when that was done a number of years ago. 
They fund the majority of the beam lines for protein 
crystallography that are currently at the APS. So the DOE 
facilities do have input, both scientific and financial, from 
the National Institutes of Health even today.
    Mrs. Biggert. Thank you. And I will yield back.
    Chairman Harris. Thank you very much, and if we keep going 
at about four minutes a question, we will do just fine.
    I am going to recognize the gentleman from New York, Mr. 
Tonko.
    Mr. Tonko. Thank you, Mr. Chair, and let me thank our 
panelists. I think you have underscored the value added of our 
user facilities and should motivate and inspire us.
    You have all discussed how these user facilities have been 
invoked by industry and academia to advance an array of clean-
energy technologies, but listening to the talk around 
Washington, one might conclude that such things are a pipe 
dream and destined to fail unless propped up by government 
programs. If run time at the user facilities is awarded based 
on competitive solicitations, how is it that there are so many 
clean-energy projects and why would you suggest are there so 
many industrial partners focused on clean-energy technologies 
if there isn't real potential for profit? Any of you want to 
address that?
    Ms. Tichenor. I am not from the business side, obviously, 
but the companies that make applications for time at our user 
facility are doing it because there is a business driver. They 
are pursuing this research because they believe that ultimately 
it makes good business sense. It is going to somehow drive new 
products, new services and drive their profitability in the 
end. It could be--maybe it is a regulatory demand, maybe it is 
a customer demand. Most of the time it is customer demands that 
are driving this,, and so I would say that is why they are 
coming in and pursuing those kinds of projects and that kind of 
research. But I am going to defer to the private-sector people 
on the panel here.
    Dr. Hall. So I just wanted to stress that at General 
Electric, we are investing huge sums of money in renewable-
energy areas. You heard me speak of a few examples. I did not 
speak about wind, but that has been a tremendous success story 
for our company and I hope for the world. You heard the story 
about battery. We are creating jobs. We are creating large 
factories. We are investing a large amount of money. We are 
also looking at solar technologies and trying to solve the 
critical technical problems associated with increasing the 
efficiency and making those products commercially viable, and 
when we use the user facilities, the reason we get time at 
those facilities is we are looking at the key science questions 
around these technologies, and it is critical that we solve, 
American industry and America solves these key questions, both 
for the future of renewable energy in the United States and 
also for the global competitiveness of our companies, and to 
solve these problems, as I have stressed before, we need to 
continue to have a collaborative model. We work with 
universities. We work with these government labs. We invest a 
huge amount of our own resources, and that is really what has 
pushed these technologies forward and enabled us to do things 
such as build a new high-tech battery plant in Schenectady, New 
York.
    Mr. Tonko. Thank you.
    Dr. Wasserman, were you going to add to that or----
    Dr. Wasserman. Since most of our work is not in the energy 
area, I think I will defer to Dr. Hall.
    Dr. Lanzirotti. I would make one point. From our 
perspective in the user community, the American public and you 
as their representatives are going to dictate through the 
funding that you make available, you know, what the national 
needs are. Those of us in the scientific community, based on 
what funding is available, you know, where industry sees that 
there are economic initiatives, we will take those and we will 
use the national laboratories and the tools that we have to 
address them, and that's one of the things that is really 
unique about these instruments is that regardless of what you 
task us to do in science, we are going to use these facilities 
to try to address them.
    Mr. Tonko. That is wonderful.
    With a minute remaining then, Mr. Chair, I will yield back.
    Chairman Harris. Thank you very much.
    I am going to reserve my time and I will yield to the 
gentleman from California, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    I certainly enjoyed listening to your testimonies so far, 
but you are putting your best foot forward. I understand that.
    Dr. Drell, I have a little technical question here 
concerning the LCLS. Now, you said it called the Linac Coherent 
Light Source. Is it also monochromatic? So in other words, is 
it a laser?
    Dr. Drell. Yes, it is an X-ray laser.
    Mr. McNerney. Wow.
    Dr. Drell. It is a free-electron laser so it is not like 
your normal laser. I don't know how technical you would like me 
to get here. I would be happy to get as technical as you would 
like. But we take a beam out of our electron Linac, very small 
emittance beam, a billion electrons and a 30-micron sphere, put 
it in 100 meters of undulator magnets that have been aligned to 
better than a tenth of the width of a human hair and we get 
lasing radiation out. We have actually just recently been able 
to make that nearly transform limited pulses.
    Mr. McNerney. Very good.
    Dr. Drell. It is a spectacular instrument.
    Mr. McNerney. It is. Wow. I didn't know that was going to 
happen in my lifetime.
    Dr. Drell. Please come visit us and let me show you for 
yourself.
    Mr. McNerney. I will do that.
    Dr. Lanzirotti, about the Joint Genome Institute, how has 
that JGI contributed to bringing genomic-based solutions and 
products to the marketplace?
    Dr. Lanzirotti. Well, we don't have anyone here from 
Lawrence Berkeley today, who would probably be better able to 
speak to that directly, but let me speak a little bit for the 
user community of JGI, and again, it is an opportunity to make 
available to the broader user community advanced sequencing 
tools. That is something that at the level that JGI provides it 
to the scientific community, it is something we don't have 
available, and it is a very vibrant community. JGI today hosts 
about 1,800 users a year. Last year, they published 188 
publications. They looked at sequencing the genome of microbes 
that were found at the bottom of the Deepwater Horizon well to 
understand, you know, how we can use what microbes are doing to 
actually clean up hydrocarbons in the future. They published 
the first publicly available sequence for soybean, which gives 
us insight, for example, into how nitrogen is fixed in 
organisms so, you know, for crop rotation, and if you look at 
it in terms of what they can accomplish, JGI produced 40 
trillion bases of sequence data last year using their advanced 
sequencing tools. That is amazing, and it takes us as users 
from not just collecting genome data but actually to understand 
what the function of individual genes is.
    Mr. McNerney. It sure would be interesting to see a sort of 
return on investment in terms of federal money invested and 
commercial value generated, but I think that is a pretty 
complicated question.
    Dr. Wasserman, I heard some proposals to cut funding for 
user facilities that are not energy related. Would that affect 
your work?
    Dr. Wasserman. It depends on whether one considers the 
Advanced Photon Source an energy-related facility or not. At 
the moment, half of its work is the traditional realm of the 
Office of Science of the DOE, chemistry, physics and materials. 
The other half is the biological side. So we clearly benefit 
from the investment the DOE has done and that is why we have 
built our own beam line, our own research facility at the 
place. But if the emphasis on energy work continues, we presume 
that the APS will continue to function and therefore we will 
benefit as well.
    Mr. McNerney. Thank you.
    I think I will yield back.
    Chairman Harris. If the gentleman would like another 
minute, if you have questions. We were just notified that the 
votes will be at 11:00, so if you want to--do you have another 
question?
    Mr. McNerney. I do. Thank you, Mr. Chairman.
    Ms. Tichenor, you mentioned that the industrial benefits 
from partnering with the national user facilities. Can you 
elaborate a little bit on how the partnerships help advance and 
develop our national interests?
    Ms. Tichenor. Well, I think they help from multiple 
perspectives. First, I think it is in the national interest to 
have companies that are strong and the companies that are 
coming and doing research are doing that research there to 
strengthen their own firms, to make them competitive, and 
competitive companies here are going to contribute to the 
economy, and I am not the economist here at the table--I don't 
know if we have one--but I think that is a good thing.
    But, you know, there is a lot of intellectual sharing that 
goes on with the users that come to the user facilities and the 
lab researchers that are there. We learn a tremendous amount. 
The labs don't have a lock on all the intellectual capital in 
the country. There is a tremendous amount of very, very good 
science that goes on in the companies, and when you provide 
these user facilities, and I can only speak, of course, about 
our own leadership computing facility, it is like a brain 
magnet. I mean, it attracts really, really smart people, and we 
want to be surrounded by smart people. We learn. And a lot of 
the work that is being done in industry, the scientific work, 
is very complementary often to work that is underway at the 
labs and so it becomes a meeting place where the ideas can be 
shared.
    Mr. McNerney. Thank you.
    This is an excellent example of how very well-targeted 
money from the government can benefit the society at large, so 
thank you for your testimony this morning.
    Chairman Harris. Thank you very much. I am going to 
continue to reserve my time.
    The gentlelady from California is recognized for five 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman, and I am going to 
just follow my colleague, Mr. McNerney, in the benefits to 
everybody of the federal investment in science, technology.
    Where in the process when it is federally funded is this 
research made available to whoever would be interested? 
Example: I have heard that in medicine, it isn't until the 
final paper comes out that then it becomes public but the 
studies and the results of those studies step by step by step 
are not published, and the medical scientists have said to me, 
we start over and over many times in our research because those 
basic research finds that might not even have anything to do 
with that original research was going to be about is not made 
available. So am I talking about something that works that you 
can help me with?
    Dr. Wasserman. In the biological field, there are two types 
of publication. There is the standard paper, which to our 
academic colleagues is their product of their scientific work, 
and we do that as well when we have reached a completion stage 
of the science that we do on a proprietary basis out of the 
APS. There is a second level of publication, which is supported 
through the National Institutes of Health known as the Protein 
Data Bank, which is a collaboration within the United States 
and with other protein data banks operated in Asia and Europe, 
and together these data banks allow you to deposit structures 
of proteins that other people can use, possibly ourselves in 
development of medicines, other university researchers who may 
be working in a related area, and so that can be made quite 
quickly. It is a requirement of publication to put your data 
into the Protein Data Bank, but there are many other structures 
that are available there for the general researcher that are 
put there well before publication occurs.
    Ms. Lofgren. Dr. Hall.
    Dr. Hall. And I think one way of thinking about these user 
facilities is that they are tools. They are tools that we use 
to build amazing technology products and tools that we use to 
build American competitiveness. And those tools, as Ms. 
Tichenor indicated, are constantly being developed, and if I 
can again use the battery technology development as an example, 
we saw that Rutgers and Brookhaven had developed a tool to do a 
certain thing. We saw how it could be adapted to help us 
understand the chemistry that was happening in batteries and 
improve our product. We did that. The world saw what we were 
doing with batteries. Other people working on batteries came 
from other companies and universities and used the tools that 
we had developed and the methods that we had developed. So 
everyone benefits. Other researchers will use that tool in a 
slightly different way. So the key is that we all work together 
to continue to improve these tools. That will accelerate the 
technology development in the country, and that just happens 
all the time.
    Ms. Lofgren. But it is preventable that we don't hold back 
in our government facilities in sharing----
    Dr. Hall. All the work that we did was done in a completely 
non-proprietary, open way, and Brookhaven has publicized that, 
trying to build a very large consortium around being a center 
for battery research.
    Ms. Lofgren. I will yield back, Mr. Chairman. Thank you 
very much.
    Chairman Harris. Well, thank you very much, and I will 
recognize myself, I guess, to close the round of questioning.
    And I am going to just follow up a little bit, I think, 
some of the things that the gentleman from Texas had asked. You 
know, since they are government facilities, obviously political 
issues arise, and I frequently get asked in town hall meetings 
and by constituents, look, why don't we keep, you know, 
American investments in America, you know, why do have what 
amounts to foreign aid, and so I am going to delve a little bit 
into the idea that we are letting foreign entities use these 
facilities, which are in the end funded by American tax 
dollars.
    So first of all, and I guess, Dr. Drell, listen, thanks for 
coming and not talking about more fascinating technology which 
I will never understand, but is it true that foreign applicants 
have access on an equal basis with American applicants to your 
facility, for instance?
    Dr. Drell. That is true. The peer-review process does not 
look at where a proposal comes from. It looks at the quality of 
the science, and that is reciprocated at facilities around the 
world.
    Chairman Harris. Okay. And that was my other question, is 
it in fact reciprocated because it is a different model. For 
instance, the NIH, which I am much more familiar with, you 
know, as far I know, I think you have to be an American, you 
know, the principal investigators, that they have to be 
American or American entities.
    Dr. Drell. To get a grant----
    Chairman Harris. Yes.
    Dr. Drell [continuing]. A specific grant, you would need to 
be--to fund your research group, to fund your postdocs, to fund 
your graduate students.
    Chairman Harris. Sure, but my----
    Dr. Drell. But beam time----
    Chairman Harris. Right, but those are--both flow from 
American taxpayer dollars. You know what I mean?
    Dr. Drell. Yes.
    Chairman Harris. So the average American looking at it is 
going wait a minute, you know, we are kind of subsidizing this 
foreign entity, but it is, as far as what you are saying, we 
have access, our scientists have access to their instruments. 
We probably just have better and wider variety of instruments, 
we would like to think.
    Dr. Drell. At the moment, certainly, in that realm. I would 
also like to emphasize that most--many of the teams, let me 
say, that have international participation also have U.S. 
participation. It is rare to have a team that is exclusively--
--
    Chairman Harris. Sure. It is part of a collaborative 
effort.
    Ms. Tichenor, is that true at your facility also?
    Ms. Tichenor. Basically, it is. I mean, DOE does not 
distinguish in their peer-review proposal process between 
different countries. They are looking for the most cutting-edge 
science, and in fact, that is what the facility was funded to 
do, right, is to support the most cutting-edge science and so 
the peer-review process winnows through all of those applicants 
to do that. Another way to think about it is, when you have 
foreign researchers there, we are not paying for those 
researchers. We don't fund them, right. Their own countries 
are. So their own countries are making an enormous investment 
in that research, and we get the benefit of it. We provide the 
tool but we get the benefit of all that investment that they 
have made and those people and that time and then we get access 
to all the results.
    Chairman Harris. Again, believe me, I get it. I mean, I get 
that science shouldn't have boundaries but again, once you ask 
the government to participate, politics, which is----
    Ms. Tichenor. Understood.
    Chairman Harris. Are there equivalent facilities overseas, 
facilities, supercomputing facilities, for instance, that our--
or do we really have the best in the world so really it is kind 
of a one-way street?
    Ms. Tichenor. Well, we are pretty fortunate right now that 
we have got some of the top systems. Now, this fluctuates, you 
know, because systems constantly are being upgraded. But there 
are certainly very similar, maybe not at any point in time one 
country has the most powerful system than another but they do 
leapfrog each other, and many of those are in university and 
national laboratory environments where, again, those countries 
have made a similar determination. We want to attract the best 
brains and so they make them available.
    Chairman Harris. At your two facilities, what is the 
estimate of the percent of foreign use, Dr. Drell?
    Dr. Drell. At the LCLS, it is 50 percent right now.
    Chairman Harris. Fifty percent?
    Dr. Drell. Right.
    Chairman Harris. Ms. Tichenor?
    Ms. Tichenor. You know, I would have to get back to you and 
get----
    Chairman Harris. Ballpark?
    Ms. Tichenor. I don't know. I wouldn't even want to--it is 
highly collaborative. It is highly collaborative.
    Chairman Harris. No, I understand that.
    And I am just going to close with just a kind of rhetorical 
question, I guess, for Dr. Wasserman and Dr. Hall, because you 
are the two private entities. You know, what is floated around 
here on Capitol Hill is that for some reason if a company is 
successful and profitable, they should pay a little bit more, 
and, you know, that is floated around now for small businesses. 
Should we go to a sliding scale for fees for user facilities? 
You know, if you are a profitable company, you pay more? What 
do you think? Do you think that is a good idea, you are more 
profitable, you pay a higher fee to the government? You can 
call it a tax to use the facility if you want.
    Dr. Hall. Well----
    Chairman Harris. It is a rhetorical question. You don't 
have to answer.
    Listen, I want to thank all the witnesses for their 
valuable testimony and the Members for their questions. The 
Members of the Committee may have additional questions for you, 
and we will ask you to respond to those in writing. The record 
will remain open for two weeks for additional comments from the 
Members.
    The witnesses are excused. Thank you all for coming. The 
hearing is now adjourned.
    [Whereupon, at 10:57 a.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Appendix 2

                              ----------                              


                   Additional Material for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Proprietary User Agreement, UChicago Argonne, LLC, Operator of Argonne 
                          National Laboratory


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                      <all>


</pre></body></html>
